No. ________

IN THE

SUPREME COURT OF THE UNITED STATES
ABIGAIL LADD, et al.,
Petitioners,
v.
JACK MARCHBANKS,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

CERTIFICATE OF SERVICE
IT IS HEREBY CERTIFIED, that that a copy
of the following documents in the above captioned
matter:
1. Petition for Writ of Certiorari of Petitioner
2. Petitioner’s Certificate of Compliance; and
3. This Proof of Service
were served via electronic mail and, in accordance
with Supreme Court Rule 29.3, via Federal Express
overnight delivery upon all parties required to be
served:

2
DAVE YOST
Ohio Attorney General
BENJAMIN M. FLOWERS
Ohio Solicitor General
STEPHEN P. CARNEY
Deputy Solicitor General
WILLIAM J. COLE
Assistant Attorney General
30 East Broad Street
17th Floor
Columbus, Ohio 43215
Email: bflowers@ohioattorneygeneral.gov
stephen.carney@ohioattorneygeneral.gov
william.cole@ohioattorneygeneral.gov
Counsel for Jack Marchbanks, Director of the
Ohio Department of Transportation
Pursuant to 28 U.S.C. § 1746, I hereby declare
under penalty of perjury that the foregoing is true
and correct.
Executed on January 4, 2021
/s/Zachary J. Murry
ZACHARY J. MURRY
Barkan & Robon, Ltd
1701 Woodlands Drive, Suite 100
Maumee, Ohio 43537
(419) 897-6500
Ohio Bar No. 0087421
Email: zmurry@barkan-robon.com

Counsel for Petitioners

